NUMBER 13-16-00079-CR

COURT OF APPEALS
THIRTEENTH DISTRICT OF TEXAS
CORPUS CHRISTI – EDINBURG
JOHN CHAMBERS,

Appellant,
v.

THE STATE OF TEXAS,

Appellee.

On appeal from the 103rd District Court
of Cameron County, Texas.

MEMORANDUM OPINION ON REMAND
Before Chief Justice Contreras and Justices Rodriguez1 and Longoria
Memorandum Opinion on Remand by Chief Justice Contreras
This case is on remand from the Texas Court of Criminal Appeals. Appellant John
Chambers, the former police chief of the small community of Indian Lake in Cameron
County, was charged with fourteen counts of tampering with governmental records with

1

The Honorable Nelda V. Rodriguez, former Justice of this Court, was a member of the panel at
the time this case was submitted but did not participate in this decision because her term of office expired
on December 31, 2018.

App. 1

intent to defraud or harm, each a state jail felony. See TEX. PENAL CODE ANN.
§ 37.10(c)(1). Trial evidence established that, in January 2015, appellant was advised by
a Texas Commission on Law Enforcement (TCOLE) agent that firearms qualifications
records for several Indian Lake reserve officers were missing. Appellant then instructed
a subordinate officer to create records falsely stating that fourteen reserve officers had
passed a firearms training course using appellant’s pistol. Appellant was found guilty on
all counts—one for each of the falsified documents—and he was sentenced to concurrent
two-year prison terms, probated for five years.
In 2017, we affirmed the conviction, concluding that: (1) the documents appellant
directed to be falsified were “governmental records” under the broad statutory definition;
(2) appellant was not entitled to a jury charge instruction on local government code
§ 341.012, which authorizes a municipality to establish a reserve police force; and (3) the
evidence was sufficient to show that appellant acted with the “intent to defraud or harm”
the State, despite the fact there was no allegation or proof that he deprived the State of
a pecuniary or property interest. Chambers v. State, 523 S.W.3d 681, 685–91 (Tex.
App.—Corpus Christi–Edinburg 2017), aff’d in part & rev’d in part, 580 S.W.3d 149 (Tex.
Crim. App. 2019). As part of his first issue, appellant contended that a broad interpretation
of “governmental records” would lead to an absurd result because “[i]t would include
virtually any piece of paper with information kept at a police department.” 523 S.W.3d at
687. We disagreed, in part because the statutory defense provided in § 37.10(f) “serves
as a safety valve that would generally prevent conviction in cases where the record at
issue . . . is insignificant or otherwise unrelated to the entity’s governmental function.” Id.
at 687–88.
The Texas Court of Criminal Appeals affirmed our judgment with respect to
2
App. 2

appellant’s first and second issues. See 580 S.W.3d at 157–58 (agreeing that the
documents were “governmental records” and noting that appellant was not harmed by the
lack of a jury instruction on local government code § 341.012). However, the Court
reversed as to appellant’s third issue, concluding that the evidence was insufficient to
show appellant acted with the “intent to defraud or harm” because “it was legally
impossible for TCOLE to be defrauded by Appellant’s deceit and for Appellant to intend
to defraud TCOLE through his deceit.” Id. at 157 (“If the government has no authority to
fine the defendant, then it is legally impossible for the defendant to ‘defraud’ the
government out of an opportunity to fine him—even if the defendant believes the
government has that authority.”).2 Moreover, the Court held that our sufficiency analysis
was “incomplete” because we did not address appellant’s argument, made for the first
time in his reply brief,3 that the evidence was insufficient to overcome his statutory

The court of criminal appeals held that, to establish an “intent to defraud or harm,” “the State must
prove that the government has the legal authority to require the keeping of records in order to show that it
is legally possible to defraud the government by filing a false record.” Chambers v. State, 580 S.W.3d 149,
160 (Tex. Crim. App. 2019). Otherwise, the doctrine of legal impossibility would preclude a finding of “intent
to defraud or harm.” Id. (citing Lawhorn v. State, 898 S.W.2d 886, 891 (Tex. Crim. App. 1995) (“Legal
impossibility has been described as existing where the act if completed would not be a crime, although
what the actor intends to accomplish would be a crime.”)).
2

We note that, although appellant argued in this Court that the documents at issue were not
“governmental documents” because they were not required to be kept by law, he never argued to this Court
that it is legally impossible to “inten[d] to defraud or harm” the State for that reason. See Wilson v. State,
311 S.W.3d 452, 457 n.14 (Tex. Crim. App. 2010) (quoting Tallant v. State, 742 S.W.2d 292, 294 (Tex.
Crim. App. 1987) (plurality op.)) (noting that, with certain exceptions not applicable here, “[a]n appellant
may not expect [the court of criminal appeals] to consider a ground for review that does not implicate a
determination by the court of appeals of a point of error presented to that court in orderly and timely
fashion”). In his third issue, appellant assumed arguendo that the State had the “regulatory power to require
[him] to . . . keep firearms records for his appointed reservists . . . .” Appellant then strictly limited his intent
argument to the notion that, even assuming the State had the legal authority to require the documents, an
“intent to defraud or harm” must still include the intent to deprive the State of a pecuniary or property interest.
The decision of the court of criminal appeals is binding on this Court. See Ex parte Hartfield, 442
S.W.3d 805, 817 (Tex. App.—Corpus Christi–Edinburg 2014, pet. ref’d); see also TEX. CONST. art. V, § 5(a).
The Court stated that, though “new issues raised in a reply brief should not be considered,”
appellant’s argument regarding the insufficiency of the evidence to overcome his § 37.10(f) defense “was
not a new issue”—instead, it was “related to the arguments in his original brief.” Chambers, 580 S.W.3d at
161 (“Appellant’s sufficiency claim in his reply brief was part and parcel of the statutory interpretation issue
he raised in his initial brief.”).
3

3
App. 3

defense under penal code § 37.10(f). 580 S.W.3d at 156–61. The Court remanded the
case to us to consider that argument. Id. at 161–62. Per our request, the parties have
filed supplemental briefs addressing that argument. We reverse and remand.
I. STANDARD OF REVIEW AND APPLICABLE LAW
In reviewing sufficiency of the evidence to support a conviction, we consider the
evidence in the light most favorable to the verdict to determine whether any rational trier
of fact could have found the essential elements of the crime beyond a reasonable doubt.
Hacker v. State, 389 S.W.3d 860, 865 (Tex. Crim. App. 2013); see Brooks v. State, 323
S.W.3d 893, 895 (Tex. Crim. App. 2010) (plurality op.) (citing Jackson v. Virginia, 443
U.S. 307, 319 (1979)).
We measure sufficiency by the elements of the offense as defined by a
hypothetically correct jury charge. Malik v. State, 953 S.W.2d 234, 240 (Tex. Crim. App.
1997). Such a charge accurately sets out the law, is authorized by the indictment, does
not unnecessarily increase the State’s burden of proof or unnecessarily restrict the State’s
theories of liability, and adequately describes the particular offense for which the
defendant was tried. Villareal v. State, 286 S.W.3d 321, 327 (Tex. Crim. App. 2009).
A hypothetically correct charge in this case would instruct the jury to find appellant

In his initial brief on appeal, appellant argued that the evidence was insufficient to support his
conviction for two limited and very specific reasons: (1) the false documents were not “governmental
records” because they were not “required to be kept by law”; and (2) the State failed to prove that he had
the intent to deprive the State of a pecuniary or property interest. See Chambers v. State, 523 S.W.3d 681,
686 (Tex. App.—Corpus Christi–Edinburg 2017), aff’d in part & rev’d in part, 580 S.W.3d at 149. Appellant
did not argue in his initial brief, implicitly or explicitly, that the evidence was insufficient to support the jury’s
rejection of his § 37.10(f) defense. He did not cite § 37.10(f) or its language anywhere in his brief. He did
not cite penal code § 2.03, generally concerning defenses to prosecution, nor did he cite any authority
regarding the proper standard for reviewing a verdict that rejects such a defense. Appellant’s initial brief did
not “argue[] that the evidence is insufficient to show that the records were kept for a governmental purpose,”
580 S.W.3d at 161—rather, it argued only that the evidence is insufficient to show that the records were
“required to be kept by law.” Appellant then raised a completely different sufficiency challenge for the first
time in his reply brief.

4
App. 4

guilty if, as a principal or a party, he “knowingly ma[de] a false entry in . . . a governmental
record.” TEX. PENAL CODE ANN. § 37.10(a)(1). Penal code § 37.10(f) states: “It is a defense
to prosecution under [§ 37.10(a)(1)] that the false entry or false information could have
no effect on the government’s purpose for requiring the governmental record.” Id.
§ 37.10(f). This is not an affirmative defense but rather a “defense to prosecution” as
defined in § 2.03 of the penal code. See id. § 2.03(a). Thus, a hypothetically correct
charge would also instruct the jury to acquit if it had a “reasonable doubt on the issue” of
whether the § 37.10(f) defense applies. See id. § 2.03(d).4

4

The actual jury charge in this case, as to the § 37.10(f) defense, differed from the hypothetically
correct charge in at least three material respects. First, it instructed: “It is a defense to a prosecution under
this offense that the false entry or false information could have no effect on the government’s purpose for
having the governmental record” (emphasis added). The statute refers to the government’s purpose for
“requiring” the record at issue—not its purpose for “having” the record. See TEX. PENAL CODE ANN.
§ 37.10(f).
The second and third differences appeared in each of the fourteen application paragraphs. Those
paragraphs stated:
Now, if you find from the evidence beyond a reasonable doubt that in Cameron County,
Texas, on or about January 13, 2015, the defendant, JOHN CHAMBERS, did then and
there, acting alone or as a party as that term has been previously defined, with intent to
defraud or harm another, namely, the STATE OF TEXAS, knowingly make a false entry in
a governmental record, to wit: firearms qualifications record, said false entry being the
name [of the reserve officer], date of qualifying, weapon used, and the weapon serial
number, then you will find the defendant guilty as charged in [count number] of the
indictment.
Unless you so believe from the evidence beyond a reasonable doubt, or if you have a
reasonable doubt thereof, you will acquit the defendant and say by your verdict “Not Guilty.”
If you do find from the evidence beyond a reasonable doubt that on or about the 13th day
of January, 2015, in Cameron County, Texas, the Defendant John Chambers did then and
there make a false entry in a government record to wit: the name [of the reserve officer],
date of qualifying, weapon used, and weapon serial number, but you further find from the
evidence that the false entry, if any, could have no effect on the government’s purpose for
requiring the governmental record, if any, then you will acquit the defendant and say by
your verdict “Not Guilty.”
(Emphasis added.) The words “if any” are not in the statute and we are aware of no other authority
supporting their inclusion in the charge. See id. And the application paragraphs failed to instruct the jurors
that they must acquit if they had a reasonable doubt about the § 37.10(f) defense—instead, contrary to the
statute, it stated only that the jurors must acquit if they “find from the evidence” that the defense is true. See
id. § 2.03(d) (“If the issue of the existence of a defense is submitted to the jury, the court shall charge that
a reasonable doubt on the issue requires that the defendant be acquitted.”).
The defects in the application paragraphs redounded to the advantage of the prosecution. The
inclusion of the words “if any” meant that the jury had to reject the § 37.10(f) defense if it found that the
government did not “requir[e]” or had no “purpose for requiring” the records at issue. The omission of

5
App. 5

For this type of defense, a defendant bears the burden of production, which
requires the production of some evidence that supports the particular defense. Zuliani v.
State, 97 S.W.3d 589, 594 (Tex. Crim. App. 2003) (citing Saxton v. State, 804 S.W.2d
910, 914 (Tex. Crim. App. 1991)). Once the defendant produces such evidence, the State
then bears the burden of persuasion to disprove the raised defense. Id.; see TEX. PENAL
CODE ANN. § 2.03(d). The burden of persuasion is not one that requires the production of
evidence; rather, it requires only that the State prove its case beyond a reasonable doubt.
Zuliani, 97 S.W.3d at 594. When a jury finds the defendant guilty, there is an implicit
finding against the defensive theory. Id. In reviewing the sufficiency of the evidence when
a jury has rejected a defense to prosecution, in addition to considering the essential
elements of the offense, we must determine, after viewing all the evidence in the light
most favorable to the prosecution, whether any rational trier of fact could have found
against the appellant on the defensive issue beyond a reasonable doubt. Saxton, 804
S.W.2d at 914.
II. ANALYSIS
In remanding to us, the court of criminal appeals observed that “[t]he meaning of
the phrase ‘government’s purpose for requiring the governmental record’ is unclear in the
context of the statute.” 580 S.W.3d at 156–61. In construing a statute, we give effect to
the plain meaning of its language unless the language is ambiguous or the plain meaning
leads to absurd results that the legislature could not have possibly intended. Ex parte
Perry, 483 S.W.3d 884, 902 (Tex. Crim. App. 2016). In determining plain meaning, we

reasonable doubt language meant that the jury could acquit based on the § 37.10(f) defense only if it
“f[ou]nd [the elements of the defense] from the evidence” and not if there was mere reasonable doubt about
the defense. See id. Appellant has not argued—either in his initial brief, his reply brief, his motion for
rehearing, his brief before the court of criminal appeals, or his supplemental brief—that the jury charge
contained reversible error.

6
App. 6

consult dictionary definitions, apply rules of grammar, and consider words in context. Id.
We presume that every word in a statute has been used for a purpose and each word,
clause, and sentence should be given effect if reasonably possible. Id. at 902–03.
Again, the § 37.10(f) defense applies if “the false entry or false information could
have no effect on the government’s purpose for requiring the governmental record.” TEX.
PENAL CODE ANN. § 37.10(f). The plain language of § 37.10(f) seems to assume the
existence of two facts: (1) that the government “requir[ed]” the record at issue; and (2)
that the government had a “purpose” for requiring the record. See id. These facts are not
essential elements of the offense which the State must allege or prove. See id. § 37.10(a);
Chambers, 580 S.W.3d at 156 (“Under the plain text of the statute, the purpose is relevant
to the defense to prosecution, not an element of the offense.”). But if appellant met his
burden to produce evidence supporting these facts and the other elements of the
§ 37.10(f) defense, then he would be entitled to an instruction on the defense, and the
State’s burden would include proving beyond a reasonable doubt that the defense is
untrue. See Zuliani, 97 S.W.3d at 594.
We assume but do not decide that appellant met his initial burden to produce
evidence supporting the § 37.10(f) defense and warranting an instruction thereon.
Nevertheless, we conclude the State also met its burden to overcome the defense beyond
a reasonable doubt.
“Require” is defined in part as “to demand as necessary or essential; have a
compelling need for.” MERRIAM-WEBSTER ONLINE DICTIONARY, https://www.merriamwebster.com/dictionary/require (last visited Apr. 6, 2020). “Purpose” means “something
set up as an object or end to be attained.” Id., https://www.merriam-webster.com/
dictionary/purpose (last visited Apr. 6, 2020).
7
App. 7

The Texas Court of Criminal Appeals held that TCOLE did not have the legal “right
or duty” to “require” the firearms qualifications records at issue here. Chambers, 580
S.W.3d at 158–60. But Chambers acknowledged receiving a report from TCOLE stating
that his reserve officers’ firearms qualification records were deficient; giving him ten days
to correct the deficiency; and threatening to impose disciplinary action or a $1,000 daily
fine if he did not timely correct the deficiency. See Chambers, 523 S.W.3d at 685 n.2.
Chambers then corrected the supposed deficiency by directing the submission of falsified
records. Based upon this evidence, which we view in the light most favorable to the
prosecution, a rational juror could have concluded beyond a reasonable doubt that
TCOLE, through its agent, actually “required” the records, even though it technically
lacked legal authority to do so. See Lancon v. State, 253 S.W.3d 699, 707 (Tex. Crim.
App. 2008) (“Because the jury is the sole judge of a witness’s credibility, and the weight
to be given the testimony, it may choose to believe some testimony and disbelieve other
testimony.”). A rational juror could have also concluded beyond a reasonable doubt that
the TCOLE agent required the documents for the specific “purpose” of causing the Indian
Lake Police Department to satisfy documentation requirements which he (incorrectly)
believed were legally applicable to reserve police officers.
As noted, the court of criminal appeals held that, because TCOLE had no legal
authority to require the documents at issue, it could not have possibly been defrauded or
harmed by Chambers’ falsification of those documents. Chambers, 580 S.W.3d at 149.
Thus, pursuant to the legal impossibility doctrine, appellant could not have formed the
“intent to defraud or harm.” See id. But the legal impossibility doctrine has been
traditionally applied only in the context of attempt crimes and to evaluate intent. See id.
at 158 n.43; Lawhorn v. State, 898 S.W.2d 886, 892 (Tex. Crim. App. 1995) (“Although
8
App. 8

impossibility is generally applied in the context of attempt crimes, it has also been raised
and considered in the context of ‘intent’ crimes.”). The issue discussed here concerns
neither attempt nor intent. Thus, the legal impossibility doctrine does not apply, and the
fact that TCOLE did not have the legal authority to “require” the documents at issue does
not mean that the State could not have disproved the § 37.10(f) defense beyond a
reasonable doubt.
Finally, a rational juror could have concluded beyond a reasonable doubt that the
false records “could have” had an effect on the agent’s “purpose” for “requiring” those
records. In particular, the jury could have concluded that submission of the false records
induced the agent to refrain from taking disciplinary action or imposing fines against
appellant and his police department. A rational juror could have made this finding even if
it was aware that TCOLE had no legal authority to take such action.
Accordingly, the evidence was sufficient to support the jury’s implicit rejection of
appellant’s § 37.10(f) defense. We overrule the issue presented on remand.
III. CONCLUSION
The Texas Court of Criminal Appeals has concluded that the evidence was legally
insufficient to support a finding that appellant acted with the “intent to defraud or harm.”
Chambers, 580 S.W.3d at 160. The other elements of the charged offense are supported
by sufficient evidence or are not challenged on appeal. Accordingly, the trial court’s
judgment should be reformed to reflect a conviction on fourteen counts of Class A
misdemeanor tampering with governmental records. See TEX. PENAL CODE ANN.
§ 37.10(c)(1); Thornton v. State, 425 S.W.3d 289, 300 (Tex. Crim. App. 2014) (stating
that an appellate court is “required” to reform a judgment to reflect conviction on a lesserincluded offense if: (1) in the course of convicting appellant of the greater offense, the jury
9
App. 9

must have necessarily found every element necessary to convict appellant on the lesserincluded offense; and (2) there is sufficient evidence to support conviction on the lesserincluded offense).
We reverse the trial court’s judgment and remand for a new punishment hearing,
for entry of judgment as set forth above, and for further proceedings consistent with this
opinion.
DORI CONTRERAS
Chief Justice
Do not publish.
TEX. R. APP. P. 47.2(b).
Delivered and filed the
9th day of April, 2020.

10
App. 10

THE THIRTEENTH COURT OF APPEALS
13-16-00079-CR
John Chambers
v.
The State of Texas
On Appeal from the
103rd District Court of Cameron County, Texas
Trial Court Cause No. 2015-DCR-268-D
JUDGMENT
THE THIRTEENTH COURT OF APPEALS, having considered this cause on
appeal, concludes that the judgment of the trial court should be reversed and the cause
remanded to the trial court. The Court orders the judgment of the trial court REVERSED
and REMANDED for further proceedings in accordance with its opinion.
We further order this decision certified below for observance.
April 9, 2020

App. 11

App. 12

App. 13

IN THE COURT OF CRIMINAL APPEALS
OF TEXAS
NO. PD-0771-17
JOHN CHAMBERS, Appellant
v.
THE STATE OF TEXAS
ON APPELLANT’S PETITION FOR DISCRETIONARY REVIEW
FROM THE THIRTEENTH COURT OF APPEALS
CAMERON COUNTY
N EWELL, J., delivered the opinion of the Court in which
K ELLER, P.J., and H ERVEY, R ICHARDSON, K EEL AND W ALKER, JJ., joined.
S LAUGHTER, J., filed a dissenting opinion in which Y EARY, J.,
joined. K EASLER, J., dissented.
Can a person commit a crime if he falsifies a governmental record
the government was not required by law to keep? Yes. A record kept by
the government for information is still a governmental record even if the
government was not required to keep it. However, if the government has
no legal authority to require the record, a person cannot defraud or harm

App. 14

Chambers - 2
the government by tampering with the record. Does this also mean that
the falsification of the record in this case had no effect on the
government’s purpose for requiring the record?

That is unclear.

We

must remand the case to the court of appeals to consider that question
because it was raised below but left unanswered.
In this case, the Texas Commission on Law Enforcement audited the
Indian Lake Police Department and found what it believed to be
deficiencies in firearms-proficiency records for several volunteer reserve
officers.

To cure the deficiencies, Appellant, then-Police Chief John

Chambers, directed a subordinate to falsify the records. The jury found
Appellant guilty of 14 courts of tampering with a governmental record
with the intent to defraud or harm.
On discretionary review, Appellant challenges the denial of a
requested jury instruction on whether the records were required to be
kept and the sufficiency of the evidence to show his intent to defraud or
harm the government. He also asserts that the court of appeals did not
address his argument about the sufficiency of the evidence to overcome
a statutory defense that applies when the falsification of the record has
no effect on the governmental purpose for the record. We hold that (1)
Appellant was not harmed by the denial of the requested jury instruction;

App. 15

Chambers - 3
(2) the evidence was insufficient to show intent to defraud or harm; and
(3) the court of appeals should be given the opportunity to address his
argument about the sufficiency of the evidence to overcome his statutory
defense. We reverse and remand the case for the court of appeals to
evaluate Appellant’s statutory defense.
Background
Appellant was the chief of the Indian Lake Police Department (“the
Department”) with a single paid subordinate, Alfredo Avalos.

The

Department had 20 to 30 reserve police officers, who were unpaid
volunteers with active peace-officer licenses. In January 2015, the Texas
Commission on Law Enforcement (“TCOLE”) audited the Department’s
records.

Derry Minor, TCOLE’s field agent, discovered that the

Department did not have valid firearms-proficiency records for at least
eight reserve officers.

He notified the Department of the alleged

deficiency and gave the Department seven business days to correct the
situation.
Appellant directed Avalos to handle the problem.

According to

Avalos, Appellant handed him a list of reserve officers and copies of old

App. 16

Chambers - 4
firearms-proficiency forms that had some information “whited out.” 1
Avalos testified that Appellant told him to fill in the forms with the names
on the list, to fill in a specific day as the qualifying date, and to list
Appellant’s firearm as the qualifying weapon, along with that firearm’s
serial number. According to Avalos and TCOLE investigator Jason Wayne
Hufstetler, Avalos consulted with TCOLE about Appellant’s instructions.
TCOLE told Avalos to comply with the instructions and document the
events.2
The State charged Appellant with 14 counts of tampering with a
governmental record with intent to defraud or harm.

Each count

corresponded to a firearms-proficiency form for a reserve officer.3 The
intent-to-defraud-or-harm element elevated the offenses from Class A
misdemeanors to state jail felonies. Multiple reserve officers testified to
various discrepancies within the firearms-proficiency forms.
Appellant

argued

at

trial

that

the

false

records

were

not

1

The firearm -proficiency evaluator’s signature and Appellant’s signature were not
“whited out.” Additionally, the word “pass” was circled in one instance.
2

Avalos testified that he was guaranteed im m unity for his actions.

3

Each count alleged that Appellant did, “with intent to defraud or harm another,
nam ely, the State of Texas, knowingly m ake a false entry in a governm ental record, to wit:
firearm s qualification record, said false entry being the nam e [of the officer], . . . date of
qualifying, weapon used and the weapon serial num ber.”

App. 17

Chambers - 5
governmental records because the reserve officers were not employees
who were required to undergo a firearms-proficiency qualification.
Defense counsel questioned Agent Minor about this subject, but Agent
Minor would not agree with counsel’s interpretation of the law. Agent
Minor did acknowledge that volunteer reserve officers were unpaid and
were “appointed” rather than “employed.”

Based on this testimony,

Appellant sought a jury instruction on § 341.012 of the Local Government
Code. Specifically, Appellant argued:
Section 341.012 establishes that a police department can
have non-licensed peace officers serve a[t] the discretion of
the police chief, and that they can carry firearms despite being
non-licensed by [TCOLE]. The Statute further establishes that
the municipality governs the standards and qualifications of
reserves, not [TCOLE]. Thus, if the jury finds that the
individuals listed in each count of the indictment were
appointed reserves, [it] would need to be instructed that the
firearms qualification information at issue was not information
required to be kept by the government. Because the evidence
adduced at trial supports such a finding, the jury should be so
instructed in the charge.
The trial court did not agree with Appellant’s interpretation of the law and
denied the instruction because records kept by the Department were still
governmental records even if TCOLE could not legally require the
Department to keep them.4
4

The jury found Appellant guilty on all 14

Section 341.012 of the Local Governm ent Code states, in relevant part:

App. 18

Chambers - 6
counts in the indictment.5
Appellant argued on appeal that the evidence was insufficient to
support his conviction. He asserted that the firearms-proficiency records
at issue were not governmental records because TCOLE could not legally
require the Department to keep them. This claim was intertwined with
Appellant’s argument that the evidence was insufficient to disprove his
statutory defense in § 37.10(f) of the Texas Penal Code. That defense

(a) The governing body of a m unicipality m ay provide for the establishm ent of
a police reserve force.
(b) The governing body shall establish qualifications and standards of training
for m em bers of the reserve force.
(c) The governing body m ay lim it the size of the reserve force.
(d) The chief of police shall appoint the m em bers of the reserve force. Mem bers
serve at the chief’s discretion.
(e) The chief of police m ay call the reserve force into service at any tim e the
chief considers it necessary to have additional officers to preserve the peace and
enforce the law.
(f) A m em ber of a reserve force who is not a peace officer as described by Article
2.12, Code of Crim inal Procedure, m ay act as a peace officer only during the
actual discharge of official duties.
(g) An appointm ent to the reserve force m ust be approved by the governing
body before the person appointed m ay carry a weapon or otherwise act as a
peace officer. On approval of the appointm ent of a m em ber who is not a peace
officer as described by Article 2.12, Code of Crim inal Procedure, the person
appointed m ay carry a weapon only when authorized to do so by the chief of
police and only when discharging official duties as a peace officer. . . .
5

The trial court sentenced him to two years’ confinem ent in state jail, probated for
five years, and assessed a $200 fine for each count. The suspended sentences of
confinem ent were set to run concurrently, but the fines were cum ulated, for a total of
$2,800.

App. 19

Chambers - 7
states: “It is a defense to prosecution under Subsection (a)(1), (a)(2), or
(a)(5) that the false entry or false information could have no effect on the
government’s purpose for requiring the governmental record.” 6 Appellant
raised another sufficiency challenge, arguing that the evidence was
insufficient to support the elevating element of intent to defraud or harm.
He also challenged the trial court’s denial of his requested jury
instruction. The court of appeals rejected all of Appellant’s claims and
affirmed the trial court’s judgment.7
Appellant Was Not Harmed by the Lack of a
“Required By Law” Jury Instruction
Appellant argues that the trial court erred by rejecting his requested
jury instruction on the law regarding reserve officers (specifically, the
instruction on Texas Local Government Code § 341.012). Error in the
jury charge is subject to a harmless-error analysis.8

If the appellant

timely objected at trial to the jury-charge error, the reviewing court will
reverse upon a showing of “some harm” to the appellant.9 This means

6

T EX . P ENAL C O DE § 37.10(f).

7

Cham bers v. State, 523 S.W .3d 681 (Tex. App.— Corpus Christi-Edinburg 2017).

8

See Barron v. State, 353 S.W .3d 879, 883 (Tex. Crim . App. 2011).

9

Mendez v. State, 545 S.W .3d 548, 552 (Tex. Crim . App. 2018) (citing Alm anza v.
State, 686 S.W .2d 157, 171 (Tex. Crim . App. 1985) (op. on reh’g)).

App. 20

Chambers - 8
that “the presence of any harm, regardless of degree, . . . is sufficient to
require a reversal.”10 If the appellant did not timely object, the court will
reverse upon a showing of “egregious harm,” which occurs when the error
created such harm that the appellant was deprived of a fair and impartial
trial.11

Under both harm standards, the appellant must have suffered

some actual—rather than merely theoretical—harm.12 Here, assuming
without deciding that Appellant properly preserved his claim and that the
trial court erred in denying Appellant’s requested instruction, we conclude
that any error was harmless because Appellant did not even suffer “some
harm.”
Appellant argues that he was harmed by this jury-charge error
because it “went to the core of [his] defense”: “that the volunteer reserve
officers . . . were not subject to TCOLE regulation and therefore, the
firearm qualification documents . . . failed to fall within the definition of
‘government[al] record.’”13

Appellant asserts that a document is a

governmental record only if it is required by law to be kept or, at the very

10

Airline v. State, 721 S.W .2d 348, 351 (Tex. Crim . App. 1986).

11

Villarreal v. State, 453 S.W .3d 429, 433 (Tex. Crim . App. 2015).

12

Reeves v. State, 420 S.W .3d 812, 816 (Tex. Crim . App. 2013).

13

App. Br. 28.

App. 21

Chambers - 9
least, is kept for a government purpose.14 Because, in Appellant’s view,
the forms were not required by law to be kept or in fact kept for a
government purpose, they were not governmental records. He asserts,
therefore, that he was harmed by the absence of this instruction.

To

determine whether Appellant was harmed, we must determine whether
the documents at issue were governmental records regardless of whether
TCOLE could legally require the Department to keep them.
When interpreting a statute, we give effect to the plain meaning of
the statute’s language, unless the statute is ambiguous or the plain
meaning leads to absurd results.15 To determine plain meaning, we use
rules of grammar and usage.16 We presume that every word in a statute
has been used for a purpose and that each word, clause, and sentence
should be given effect if reasonably possible.17
Appellant’s

first

argument

that

a

document

qualifies

as

a

governmental record only if it is “required by law” to be kept is

14

Id. at 17.

15

Liverm an v. State, 470 S.W .3d 831, 835–36 (Tex. Crim . App. 2015); see also
Boykin v. State, 818 S.W .2d 782, 785 (Tex. Crim . App. 1991) (“[I]f the m eaning of the
statutory text, when read using the established canons of construction relating to such text,
should have been plain to the legislators who voted on it, we ordinarily give effect to that
plain m eaning.”).
16

Liverm an, 470 S.W .3d at 836.

17

Id.

App. 22

Chambers - 10
inconsistent with the statutory text. The Penal Code contains a list of
definitions of “governmental record,” only two of which are at issue here:
(A) anything belonging to, received by, or kept by government
for information, including a court record;
(B) anything required by law to be kept by others for
information of government.18
Subsection (B) of the governmental-record definition requires the
document to be “required by law.” Subsection (A), however, does not.
Reading that limitation into Subsection (A) would render the phrase
“required by law” in Subsection (B) meaningless.19

Thus, we reject

Appellant’s argument that there must be a showing that a particular
governmental record was “required by law” before it can constitute a
governmental record. The firearms-proficiency records in this case were
both “received by” and “kept by” the government. Thus, they were still
governmental records regardless of whether TCOLE could require the
Department to keep them.
Regarding Appellant’s alternative argument—that the document

18

T EX . P ENAL C O DE § 37.01(2).

19

See Liverm an, 470 S.W .3d at 836 (“[W ]e presum e that every word in a statute has
been used for a purpose and that each word, clause, and sentence should be given effect if
reasonably possible.”); see also State ex rel. W ice v. Fifth Jud. Dist. Ct. App., ___ S.W .3d
___, 2018 W L 6072183, at *6 (Tex. Crim . App. 2018) (rejecting one possible interpretation
because it would render certain statutory requirem ents m eaningless).

App. 23

Chambers - 11
must, at the very least, be kept for a government purpose to constitute
a governmental record—he relies on a defense in the tampering statute.
That defense states: “It is a defense to prosecution under Subsection
(a)(1), (a)(2), or (a)(5) that the false entry or false information could
have

no

effect

on

the

government’s

purpose

for

requiring

the

governmental record.”20 Appellant essentially interprets the defense as
imposing a “purpose” requirement in the governmental-record definition.
A general rule of statutory interpretation is that the expression of
one thing implies the exclusion of other, unexpressed things.21
tampering statute provides six ways to commit the offense.22

The

In the

statutory defense, however, the Legislature expressly mentioned only
three of the six, specifically, Subsections (a)(1), (a)(2), and (a)(5). The
express statement of those three subsections implies that the statutory
defense does not apply to Subsections (a)(3), (a)(4), and (a)(6).

In

other words, Subsections (a)(3), (a)(4), and (a)(6) are implicitly
excluded.

Accepting Appellant’s interpretation would inappropriately

20

T EX . P ENAL C O DE § 37.10(f). A defense to prosecution is labeled by the phrase: “It
is a defense to prosecution....” T EX . P ENAL C O D E § 2.03(a).
21

State v. Hill, 499 S.W .3d 853, 866 n.29 (Tex. Crim . App. 2016); A NTO NIN S CALIA &
B RYAN A. G ARNER , R EAD ING L AW 107 (2012) (“The expression of one thing im plies the exclusion
of others (expressio unis est exclusio alterius).”).
22

T EX . P ENAL C O DE § 37.10(a).

App. 24

Chambers - 12
extend the statutory defense to those excluded subsections despite the
Legislature’s express limitation. We reject Appellant’s argument that a
document must, at the very least, be kept for a government purpose to
constitute a governmental record. Under the plain text of the statute, the
purpose is relevant to the defense to prosecution, not an element of the
offense.
In sum, Appellant’s interpretation of the definition of “governmental
record” conflicts with the statute’s plain language.

The firearms-

proficiency records for the reserve officers were governmental records
even without a showing that the Department was “required by law” to
keep them. Consequently, the absence of an instruction on the issue of
whether the Department was required by law to keep the records did not
harm Appellant because it would have had no effect on the jury’s
determination that the firearms-proficiency records were governmental
records.
Sufficiency of the Evidence
Appellant also argues that the evidence is insufficient to establish
that he acted with an “intent to defraud or harm.” When reviewing the
sufficiency of the evidence, we ask “whether, after viewing the evidence
in the light most favorable to the prosecution, any rational finder of fact

App. 25

Chambers - 13
could have found the essential elements of the offense beyond a
reasonable doubt.”23 Sometimes that is simply a matter of reviewing the
record to determine whether there is sufficient evidence to establish a
particular element of an offense.

Sometimes that requires us to

determine the meaning of the statute under which the defendant was
prosecuted.24 In other words, we ask if the defendant’s conduct actually
constitutes

an

offense

under

the

statute.25

Like

all

statutory

interpretation questions, this is a question of law that we review de
novo.26 Here, Appellant’s sufficiency challenge requires us to determine
the meaning of the phrase “intent to defraud” as it is used within the
applicable statute.
Defining “Intent to Defraud”
Tampering with a governmental record is a state jail felony if “the
actor’s intent [was] to defraud or harm another.”27 Without that intent,
the offense is a Class A misdemeanor.28 Appellant asserts that, even if

23

Liverm an, 470 S.W .3d at 835–36.

24

Id. at 836.

25

Id.

26

Id.

27

T EX . P ENAL C O DE § 37.10(c)(1).

28

Id. This, of course, assum es the absence of other elevating elem ents.

App. 26

Chambers - 14
the records at issue are governmental records, it was legally impossible
for him to defraud or harm TCOLE because TCOLE had no authority to
require the keeping of the records in the first place.29

Therefore,

Appellant argues, the evidence is insufficient to show an intent to defraud
or harm TCOLE. We agree.
The Penal Code defines “harm” as “anything reasonably regarded as
loss, disadvantage, or injury, including harm to another person in whose
welfare the person affected is interested.” 30 “Defraud,” however, is not
statutorily defined. The court of appeals applied the following definition
of

“defraud”:

“to

cause

another

to

rely

upon

the

falsity

of

a

representation, such that the other person is induced to act or is induced
to refrain from acting.”31 The court also noted that an intent to defraud
does not require an intent to deprive the government of money or
property.32

Thus, according to the court, intent to defraud could be

proven by evidence that Appellant intend to cause TCOLE to rely upon a
false representation to act (or refrain from acting). But that definition is

29

App. Br. 21, 31.

30

T EX . P ENAL C O DE § 1.07(a)(25).

31

Cham bers, 523 S.W .3d at 690.

32

Id. (citing Ham m erschm idt v. United States, 265 U.S. 182, 188 (1924)).

App. 27

Chambers - 15
too broad.
We agree that an intent to defraud does not require an intent to
deprive the government of money or property; but something more is
required than simply an intent to cause the government entity to rely
upon a false representation to act (or refrain from acting).

When

determining a statute’s plain meaning, we may consult dictionary
definitions.33
Here, dictionary definitions of “defraud” indicate that the dishonest
means must cause an injury or loss by withholding a possession, right, or
interest. For example, Webster’s New World College Dictionary defines
“defraud” as: “to take away or hold back property, rights, etc. from by
fraud.”34 Likewise, American Heritage Dictionary defines “defraud” as “to
take something from by fraud” and defines “fraud” as “[a] deception
practiced in order to induce another to give up possession of property or
surrender a right.” 35

Other dictionaries provide similar definitions.36

33

Ex parte Perry, 483 S.W .3d 884, 902 (Tex. Crim . App. 2016).

34

Defraud, W EBSTER ’S N EW W O RLD C O LLEG E D ICTIO NARY (5th ed. 2014).

35

Defraud and Fraud, A M ERICAN H ERITAG E D ICTIO NARY (5th ed. 2016).

36

Defraud, W EBSTER ’S T H IRD N EW I NTERNATIO NAL D ICTIO NARY (3rd ed. 2002) (“[T]o take
or withhold from (one) som e possession, right, or interest by calculated m isstatem ent or
perversion of truth, trickery, or other deception.”); Defraud, D ICTIO NARY O F L EG AL T ERM S (4th
ed. 2008) (“[T]o deprive a person of property or interest, estate or right by fraud or
deceit.”); Intent to defraud, B LACK ’S L AW D ICTIO NARY (6th ed. 1994) (“[A]n intention to

App. 28

Chambers - 16
These definitions line up with the common general meaning of “defraud.”
So, in the context of this statute: To be defrauded, the government must
have a right or duty to act (or refrain from acting) on the matter intended
to be affected by the deceit.37
Holding otherwise would create, as Appellant argues, a legal
impossibility. A legal impossibility exists where the defendant intends to
do something that would not constitute a crime (or at least the crime
charged).38 In other words, the defendant may intend to commit a crime,
not because he intends to do something the criminal law prohibits, but
because he is ignorant of the law.39
For example, a defendant may intend to prevent the government
from taking a certain action against him—say, fining him.

If the

government has no authority to fine the defendant, then it is legally
impossible for the defendant to “defraud” the government out of an
opportunity to fine him—even if the defendant believes the government

deceive another person, and to induce such other person, in reliance upon such deception,
to assum e, create, transfer, alter or term inate a right, obligation or power.”).
37

Of course, this definition is in addition to defrauding by causing pecuniary or
property loss or som e other cognizable loss.
38

Lawhorn v. State, 898 S.W .2d 886, 891 (Tex. Crim . App. 1995). In that case, we
also noted that legal im possibility exists “where the act if com pleted would not be a crim e,
although what the actor intends to accom plish would be a crim e.” Id.
39

Id. at 892.

App. 29

Chambers - 17
has that authority.40

The defendant could accomplish everything he

intends to do, but “the resulting end would still not be a crime, or at least
the crime charged.” 41 And “what is not criminal may not be turned into
a crime after the fact by characterizing [the] acts as an attempt,” 42 or, in
this case, an intent.43
We conclude that intent to defraud a government entity requires not
only an intent to cause the entity to rely upon a false representation to
act (or refrain from acting) on a certain matter, but also that the
government has the right or duty to act on that matter. The question
then becomes whether TCOLE had the right or duty to require the
firearm-proficiency records for the licensed reserve officers. It did not.
TCOLE Did Not Have the Right or Duty to Require the Records
The relevant firearms-proficiency provisions in the Occupations Code
state:
40

To be clear, the situation here is not one of factual im possibility. “Factual
im possibility is generally regarded as existing where, due to a physical or factual condition
unknown to the actor, the attem pted crim e could not be com pleted.” Id. at 891. The
im possibility here does not arise from a “factual condition.” Instead, the im possibility arises
purely from the reach of the law.
41

Id. at 892.

42

2 W ayne R. LaFave, Substantive Crim inal Law § 11.5(a)(3) (3d ed. 2018).

43

Lawhorn, 898 S.W .2d at 892 (“Although im possibility is generally applied in the
context of attem pt crim es, it has also been raised and considered in the context of ‘intent’
crim es. . . . Moreover, this Court has historically recognized, for purposes of pleading, that
‘attem pt’ m ay be used in place of ‘intent.’”).

App. 30

Chambers - 18
(a) An agency that employs one or more peace officers shall
designate a firearms proficiency officer and require each peace
officer the agency employs to demonstrate weapons
proficiency to the firearms proficiency officer at least annually.
The agency shall maintain records of the weapons proficiency
of the agency’s peace officers.
. . .
(c) [TCOLE]44 by rule shall define weapons proficiency for
purposes of this section.45
According to its plain language, this statute applies only to “peace
officers” who are “employed.” “Peace officer” is statutorily defined as “a
person elected, employed, or appointed as a peace officer under Article
2.12, Code of Criminal Procedure, or other law.”46 Article 2.12 includes
“peace officers” who are “reserve municipal police officers who hold a
permanent peace officer license issued under Chapter 1701, Occupations
Code.”47

Thus, licensed reserve officers—like the reserve officers

here—are “peace officers.”48

The question then becomes whether the

44

T EX . O CC . C O D E § 1701.001(1) (“‘Com m ission’ m eans the Texas Com m ission on Law
Enforcem ent.”).
45

T EX . O CC . C O D E § 1701.355 (em phasis added).

46

T EX . O CC . C O D E § 1701.001(4).

47

T EX . C O D E C RIM . P RO C . art. 2.12(3).

48

According to the definition of “officer,” it m ay appear that an officer cannot be both
a “peace officer” and “reserve law enforcem ent officer.” “Officer” is defined as: “a peace
officer or reserve law enforcem ent officer.” T EX . O CC . C O DE § 1701.001(3) (em phasis added).
Statutory context, however, overcom es the ordinary, disjunctive m eaning of “or” in that
definition. Looking at Article 2.12, the Legislature clearly intended for there to be overlap

App. 31

Chambers - 19
reserve officers here were “employed.” They were not.
The

definition

of

“reserve

law

enforcement

officer”

in

the

Occupations Code directs us to § 341.012 of the Local Government
Code.49 That Local Government Code provision states, in relevant part:
“The governing body of a municipality may provide for the establishment
of a police reserve force. . . . The chief of police shall appoint the
members of the reserve force.”50 Thus, according to the plain language,
reserve officers are appointed rather than employed.
To be sure, the Legislature used “or” when defining “peace officer”:
“a person elected, employed, or appointed . . . .” 51 TCOLE did the same.52
Almost always, the use of “or” is disjunctive—that is, it creates
alternatives, and “the words it connects are to ‘be given separate

between “peace officer” and “reserve law enforcem ent officer.” The Legislature did not
intend for the two to be m utually exclusive.
49

T EX . O CC . C O D E § 1701.001(6) (“‘Reserve law enforcem ent officer’ m eans a person
designated as a reserve law enforcem ent officer under Section 85.004, 86.012, or 341.012,
Local Governm ent Code, or Section 60.0775, Water Code.”).
50

T EX . L O CAL G O V ’T C O D E § 341.012(a), (d).

51

T EX . O CC . C O D E § 1701.001(4) (em phasis added).

52

37 T EX . A D M IN . C O D E § 211.1(a)(44) (2014) (“Peace officer— A person elected,
em ployed, or appointed as a peace officer under the provisions of the Texas Occupations
Code, § 1701.001.”).

App. 32

Chambers - 20
meanings.’”53

Here, nothing indicates that the Legislature intended

something other than that ordinary meaning. Thus, elected, employed,
and appointed have separate meanings. Here, the reserve officers were
appointed rather than employed, and the firearms-proficiency statute
does not apply to them. TCOLE did not have the right or duty to require
the records, and the records were not required by law to be kept.
Just to clarify, in addressing Appellant’s jury charge claim, we held
that the firearms-proficiency records constitute governmental records
regardless of whether they were required by law. That is because the
applicable definition of governmental record only requires proof that the
records were received or kept by the government for information—not
that the government was required by law to receive or keep them. With
regard to Appellant’s claim that there was insufficient evidence to
establish an intent to defraud or harm, we hold that the State must prove
that the government has the legal authority to require the keeping of
records in order to show that it is legally possible to defraud the
government by filing a false record.

53

United States v. W oods, 571 U.S. 31, 45 (2013); cf. Huffm an v. State, 267 S.W .3d
902, 904, 909 (Tex. Crim . App. 2008) (stating that a jury charge using “or” charged the
violations of the statute in the disjunctive, creating an allegation in the alternative); see
also A NTO NIN S CALIA & B RYAN A. G ARNER , R EAD ING L AW 116 (2012) (“Under the
conjunctive/disjunctive canon, and com bines item s while or creates alternatives.”).

App. 33

Chambers - 21
In this case, it was legally impossible for TCOLE to be defrauded by
Appellant’s deceit and for Appellant to intend to defraud TCOLE through
his deceit. There is also no evidence to show intent to defraud by causing
pecuniary or property loss or some other cognizable loss or to show intent
to harm by causing a loss, disadvantage, or injury to another.
Consequently, the evidence is insufficient to support the intent-todefraud-or-harm element. We sustain this ground for review.
The Court of Appeals’ Sufficiency Analysis is Incomplete
Appellant argued to the court of appeals that the records were not
governmental records because they were not required by law to be kept
or, at the very least, were not actually kept for a government purpose.
In Appellant’s reply brief, he clarified that argument, asserting that the
State was also required to disprove his statutory defense. As mentioned
previously, the statutory defense states: “It is a defense to prosecution
under Subsection (a)(1), (a)(2), or (a)(5) that the false entry or false
information could have no effect on the government’s purpose for
requiring the governmental record.”54 The court of appeals stated in a
footnote that Appellant did not raise a sufficiency claim regarding the

54

T EX . P ENAL C O DE § 37.10(f).

App. 34

Chambers - 22
rejection of the statutory defense.55
Rather than address Appellant’s complaint as part of his initial
sufficiency challenge, the court of appeals discussed the existence of the
statutory defense to undercut Appellant’s argument that a broad
interpretation of “governmental record” would lead to an absurd result.56
In effect, as part of its interpretation of the statute, the court of appeals
acknowledged that the governmental purpose of the records is treated as
a defensive issue, but then it did not address Appellant’s argument that
the State’s evidence was insufficient to overcome that defensive issue.
On discretionary review, Appellant again combines the issue of the
statutory defense with his argument regarding the governmental-record
definition. He specifically complains that, even if we hold that this is an
issue about a statutory defense rather than the governmental-record
definition, the evidence is still legally insufficient.57

Further, Appellant

argues that the court of appeals’ opinion did not comply with Rule 47.1
of the Texas Rules of Appellate Procedure, which requires the court of

55

See Cham bers, 525 S.W.3d at 688 n.4.

56

Id. at 687 (“It is also noteworthy that section 37.10 provides for a defense to
tam pering with [a] governm ental record in cases where ‘the false entry or false inform ation
could have no effect on the governm ent’s purpose for requiring the governm ental record.’”).
57

App. Br. 20.

App. 35

Chambers - 23
appeals to address every issue raised and necessary to a final disposition
on appeal.58

He specifically asks this Court to reverse the court of

appeals’ judgment and remand this case to the court of appeals to fully
address Appellant’s statutory-defense arguments.59
Though we have never specifically addressed when courts of appeals
should address arguments raised by an appellant in a reply brief, several
courts of appeals have.

Generally, an appellant may not raise a new

issue in a reply brief because Rule 38.3 allows courts of appeals to decide
the matter prior to receiving the reply brief.60 But courts of appeals can
consider arguments and authorities in a reply brief that are related to the
arguments in the original brief.61 We agree with the courts of appeals
that new issues raised in a reply brief should not be considered.
However, Appellant’s argument in his reply brief was not a new issue; it

58

Id. at 21; see also T EX . R. A PP . 47.1.

59

App. Br. 24.

60

See, e.g., Barrios v. State, 27 S.W .3d 313, 322 (Tex. App.— Houston [1st Dist.]
2000, pet ref’d.); State v. Vavro, 259 S.W .3d 377, 379-80 (Tex. App.— Dallas 2008, no
pet.).
61

See, e.g., McAlester Fuel Co. v. Sm ith Intern., Inc., 257 S.W .3d 732, 737 (Tex.
App.— Houston [1st Dist.] 2007, pet. denied) (addressing assertions in reply brief “that can
be construed to expound on [Appellant’s] second issue presented in its opening brief or that
reply to issues fully briefed by Appellee”); Benge v. Harris, No. 07-13-00064-CV, 2013 W L
4528885, at *1 (Tex. App.— Am arillo Aug. 20, 2013, no pet.) (not designated for
publication) (“Accordingly, our analysis is lim ited to those issues and argum ents raised in
the original brief and those in the reply brief which are related to the original argum ents.”).

App. 36

Chambers - 24
was related to the arguments in his original brief.
This is not a case in which the defendant raises a completely
independent issue on appeal in a reply brief. Neither is it a case where
the defendant raises a completely different sufficiency challenge for the
first time in a reply brief. Instead, Appellant’s sufficiency claim in his
reply brief was part and parcel of the statutory interpretation issue he
raised in his initial brief.

Appellant has consistently argued that the

evidence is insufficient to show that the records were kept for a
governmental purpose, and part of that sufficiency claim is based on how
the statute should be interpreted.

Having determined that the

governmental purpose of the record can be a requirement when
considered as part of a statutory defense rather than as an element of the
offense, the court of appeals should have considered Appellant’s
responsive argument in his pre-submission reply brief that the evidence
is legally insufficient to overcome his statutory defense.62
We are unaware of any of our cases interpreting this statutory
defense. The meaning of the phrase “government’s purpose for requiring
the governmental record” is unclear in the context of the statute. Our

62

T EX . R. A PP . 47.1

App. 37

Chambers - 25
resolution of the issue (if any should even be necessary after a remand)
would benefit from a carefully wrought decision from the court of
appeals.63 Thus, we remand the case for the court of appeals to evaluate
the meaning of “government’s purpose for requiring the governmental
record” in § 37.10(f) and, based on its determined meaning, consider
whether the evidence was sufficient to overcome the statutory defense.
Conclusion
We affirm the court of appeals regarding Appellant’s complaint
about the § 341.012 jury instruction. We hold that Appellant was not
harmed by the absence of that jury instruction. We further hold that the
evidence was insufficient to support the intent-to-defraud-or-harm
element and reverse the court of appeals’ determination that the
evidence was sufficient. However, we reverse and remand the case to
the court of appeals to evaluate the sufficiency of the evidence to
overcome Appellant’s statutory defense under § 37.10(f).
Filed: June 26, 2019
Publish

63

McClintock v. State, 444 S.W .3d 15, 21 (Tex. Crim . App. 2014).

App. 38

IN THE COURT OF CRIMINAL APPEALS
OF TEXAS
NO. PD-0771-17
JOHN CHAMBERS, Appellant
v.
THE STATE OF TEXAS
ON APPELLANT’S PETITION FOR DISCRETIONARY REVIEW
FROM THE THIRTEENTH COURT OF APPEALS
CAMERON COUNTY
S LAUGHTER, J., filed a dissenting opinion in which Y EARY, J., joined.
DISSENTING OPINION
I agree with the Court that the evidence is insufficient to support the intent-to-defraudor-harm element. I also agree with the Court that the court of appeals failed to address the
issue raised on appeal of whether the evidence was sufficient to overcome the statutory
defense. I disagree, however, with remanding the case and would instead render a judgment
of acquittal for Appellant because I find that the evidence is insufficient on the element of
“governmental record.”

App. 39

Chambers dissent - 2
In its opinion, the Court effectively decides that the reserve officers’ firearmsproficiency records are “governmental records” as a matter of law. In doing so, the Court
implicitly creates a bright-line rule that all documents possessed by the government are
“received by” or “kept by” the government “for information.”

See T EX. P ENAL C ODE §

37.01(2)(A). This is not a matter for the Court to decide. This is a question of fact for the
jury to decide. The fact issue boils down to whether these records were received or kept by
the government “for information.” Id. “For information” indicates that there is a usefulness
or a reason for the government to want or need the records. This issue is debatable and thus
raises a fact question that can only be properly resolved by the jury. Here, the jury, by its
verdict, implicitly found that the firearms-proficiency records were governmental records.
Thus, the Court’s job is to determine whether: (a) the jury charge provided the proper
instructions and law for a jury to decide that issue, and (b) the evidence was sufficient for the
jury to find that the firearms-proficiency records were governmental records. The answer to
both questions is “no.” Therefore, I would reverse the court of appeals and render an
acquittal for the Appellant on the sufficiency issue.
Background Facts and Procedural History
Appellant was the chief of police for the Indian Lake Police Department. Following
an audit, the Texas Commission on Law Enforcement (“TCOLE”) informed Appellant that
the department was missing firearms-proficiency training forms for several unpaid reserve
officers. TCOLE told Appellant these were required documents and threatened that if he did

App. 40

Chambers dissent - 3
not submit them to the agency within seven days, he would face various penalties. Appellant
instructed his subordinate, Alfredo Avalos, to fill out the forms using a date Appellant
selected, along with the make, model, and serial number of Appellant’s own firearm. Avalos
reported this to TCOLE. TCOLE instructed Avalos to do what Appellant told him to do and
Avalos would receive immunity.
Appellant was charged with and convicted of fourteen counts of tampering with a
governmental record under Texas Penal Code Section 37.10(a)(1), which makes it an offense
to “knowingly make[] a false entry in, or false alteration of, a governmental record.” The
Penal Code provides multiple definitions for what constitutes a “governmental record,” but
only two of those definitions are relevant to this case: (1) “anything belonging to, received
by, or kept by government for information, including a court record,” or (2) “anything
required by law to be kept by others for information of government.” T EX. P ENAL C ODE §
37.01(2)(A), (B).1 The tampering statute also includes a statutory defense, which provides
that “[i]t is a defense to prosecution under Subsection (a)(1) . . . that the false entry or false
information could have no effect on the government’s purpose for requiring the
governmental record.” Id. § 37.10(f).2

1

The remaining subsections (2)(C) through (2)(F) contain additional possible definitions for
governmental record that are not implicated here. TEX . PENAL CODE § 37.01(2). The jury in this
case received instructions on the definitions for governmental record provided in Subsections (2)(A)
and (2)(B) of Section 37.01, and so I limit my analysis to only those definitions.
2

Although the jury did receive an instruction on the statutory defense, the court’s charge did
not precisely track the statutory language. Instead, the jury was instructed, “It is a defense to a
prosecution under this offense that the false entry or false information could have no effect on the

App. 41

Chambers dissent - 4
At trial, the State repeatedly stressed its position that the firearms-proficiency records
were legally required to be kept by the police department to comply with TCOLE
regulations. Thus, the State appeared to take the position that the documents fell within the
definition of governmental records applicable to “anything required by law to be kept by
others for information of government.” Id. § 37.01(2)(B).3 The State asserted that, pursuant
to TCOLE regulations as codified in the Texas Administrative Code,4 the police department
was required by law to create and keep firearms-proficiency records for all unpaid reserve
officers.5 It further asserted that Appellant was guilty of tampering because he had entered
in the wrong date of testing, firearm used, and serial number of the firearm used on the
firearms-proficiency records of the fourteen reserve officers.6
On direct appeal from his convictions, Appellant complained that the evidence was
insufficient to show that the records at issue satisfied either of the relevant definitions for a
governmental record. See T EX. P ENAL C ODE § 37.01(2)(A), (B). He also complained that the

government’s purpose for having the governmental record.” See Clerk’s Record, at 176 (emphasis
added).
3

See 13 R.R. 7-11, 15, 33.

4

See TEX . ADMIN . CODE § 218.9.

5

See 13 R.R. 9-11. For example, during its closing argument, the State argued to the jury that
TCOLE has “the power to make these rules. And they made the rules and they said that each agency
must have firearms qualification forms. Whether you are a reserve officer, a part-time, full-time,
everybody is required to have these forms in their file.” Id. at 9-10 (emphasis added).
6

See 13 R.R. 14, 33.

App. 42

Chambers dissent - 5
trial court erred by denying his request for a jury instruction on the provisions of Local
Government Code Section 341.012,7 which would have informed the jury that the police
chief and municipality, not TCOLE, had authority over unpaid reserve officers such that the
records at issue were not required by law. Chambers v. State, 523 S.W.3d 681, 688 (Tex.
App.—Corpus Christi 2017). Finally, Appellant argued that even if these were governmental
records, the statutory defense applied because the “false information could have no effect on
the government’s purpose for requiring the governmental record.” See T EX. P ENAL C ODE §
37.10(f). The court of appeals rejected all of Appellant’s arguments and upheld his
convictions.
Discussion
I.

The evidence is insufficient on the governmental-record element.

While the statute contains multiple definitions of “governmental record,” only two of
those definitions are implicated here. Texas Penal Code Section 37.01(2)(A) provides that

7

The statute provides:
The governing body of a municipality may provide for the establishment of a police
reserve force. The governing body shall establish qualifications and standards of
training for members of the reserve force. . . . The chief of police shall appoint the
members of the reserve force. Members serve at the chief’s discretion. . . . An
appointment to the reserve force must be approved by the governing body before the
person appointed may carry a weapon or otherwise act as a peace officer. . . . Reserve
police officers may act only in a supplementary capacity to the regular police force
and may not assume the full-time duties of regular police officers without complying
with the requirements for regular police officers.

TEX . LOCAL GOV ’T CODE § 341.012(a), (b), (d), (g), (h) (internal numbering omitted).

App. 43

Chambers dissent - 6
a governmental record is “anything belonging to, received by, or kept by government for
information[.]” Section 37.01(2)(B) provides that it is “anything required by law to be kept
by others for information of government.” Based on the relevant provisions in the
Occupations Code and the Local Government Code, the Court finds that the firearmsproficiency records were not “required by law” and do not meet the definition of
“governmental record” under Section 37.01(2)(B).
Instead, the Court focuses on the definition in Section 37.01(2)(A). The Court finds
that because these firearms-proficiency documents were “received by” and “kept by”
TCOLE, a governmental agency, they satisfy the definition of “governmental record” as a
matter of law. But whether these records are useful to TCOLE or whether TCOLE has an
informational need for the records is a fact issue for the jury.8 It is not an issue for the Court
to decide as a matter of law. By the jury’s verdict convicting Appellant, the jury implicitly

8

Neither this Court nor the Texas Supreme Court has expressly considered whether the
designation of something as a governmental record is a question of fact or a question of law. Courts
of appeals have found that whether a document is a governmental record is a fact issue for the jury.
See, e.g., Hernandez v. State, No. 14-17-00643-CR, 2019 WL 1966866, at *4 (Tex. App.—Houston
[14th Dist.] May 2, 2019) (“We conclude that the trial evidence would allow a rational trier of fact
to find beyond a reasonable doubt that the Offense Report was a governmental record when appellant
made the false entry in it.”); James v. State, No. 12-05-00410-CR, 2007 WL 949619, at *2 (Tex.
App.—Tyler Mar. 30, 2007, pet. ref’d) (mem. op., not designated for publication) (addressing the
issue of whether the evidence was sufficient “to support the jury’s finding that the marriage licence
application in question was a governmental record”). I support this approach by the courts of appeals
because whether a document meets one of the statutory definitions of “governmental record”
involves a factual determination.

App. 44

Chambers dissent - 7
found that these documents were “governmental records.” Thus, the question becomes
whether the evidence supports that finding. It does not.
The Court’s “governmental record” analysis focused on the fact that the firearmsproficiency records were “received” by and “kept” by TCOLE. It, however, glosses over the
“for information” part of the statutory definition. To meet the definition of “governmental
record,” the records must be received by or kept by the government “for information.” T EX.
P ENAL C ODE § 37.01(2)(A). Thus, as argued by Appellant, there must be a demonstrated
governmental purpose for receiving or keeping such records. One does not receive or keep
records “for information” unless the information is useful to the governmental agency that
receives or keeps it. In this case, TCOLE had no use for the information in the reserve
officers’ firearms-proficiency records because TCOLE has no involvement with and no
authority over reserve officers.
The Texas Occupations Code contains the provisions that apply to TCOLE-regulated
peace officers. Under the Code, TCOLE is tasked with establishing the qualifications and
training requirements for every “peace officer.” But under the Code, “peace officer” is
defined separately from a “reserve law enforcement officer.” T EX. O CC. C ODE § 1701.001(4),
(6). A “reserve law enforcement officer” is a person designated as such under Section
341.012 of the Local Government Code. The Occupations Code “does not limit the powers
or duties of a municipality or county” unless expressly stated under the Code. Id. §
1701.003. Section 1701.355 requires weapons-proficiency exams and exam records for each

App. 45

Chambers dissent - 8
peace officer an agency “employs.” Reserve officers are appointed by the police chief and
are not “employ[ed]” by the agency. T EX. L OC. G OV’T C ODE § 341.012.
Texas Local Government Code Section 341.012 provides that municipalities make the
decision of whether to have reserve officers and what qualifications and training are
required—not TCOLE.

The police chief makes the hiring and supervisory decisions

regarding those reserve officers:
The governing body of a municipality may provide for the establishment of a
police reserve force. The governing body shall establish qualifications and
standards of training for members of the reserve force. . . . The chief of police
shall appoint the members of the reserve force. Members serve at the chief’s
discretion.
T EX. L OC. G OV’T C ODE § 341.012 (internal numbering omitted). Reserve officers are only
subject to TCOLE regulation and authority when they “assume the full-time duties of regular
police officers.” Id. § 341.012(h).
At trial, the evidence presented demonstrated various reasons why firearmsproficiency records were useful to TCOLE. Such evidence would be sufficient to show why
firearms-proficiency records of “peace officers” would be kept by TCOLE “for information.”
But it is not sufficient to show why “reserve law enforcement officers” firearms-proficiency
records would be useful to TCOLE since TCOLE has no authority to train, supervise, or
regulate reserve officers. T EX. L OC. G OV’T C ODE § 341.012. In fact, a reserve officer does
not have to be licensed as a peace officer. Id. § 341.012(g). Further, whether a reserve officer
is even allowed to carry a gun is the sole discretionary decision of the police chief. Id.

App. 46

Chambers dissent - 9
An argument could be made that the Indian Lake Police Department (“the
Department”), a governmental agency, kept the records “for information.” But there was no
evidence of that. Appellant, as the police chief, created the records solely to appease
TCOLE. Had TCOLE not demanded these records, they never would have been created.
Appellant and Avalos were the only two paid employees of the Department. Both of them
knew that these documents contained false information. By the time a new police chief was
hired, it was public knowledge that these documents contained false information. Thus, the
documents were useless to the Department and it did not keep these documents “for
information.”

Moreover, the evidence at trial revealed that when Appellant left the

Department, the documents at issue could no longer be found within the Department.9
Accordingly, the evidence is insufficient to find that these reserve officers’ firearmsproficiency documents were “governmental records” kept “for information.”
II.

Appellant was harmed by the trial court’s refusal of his requested
jury instructions.

Appellant requested that the Court provide the jury with the statutory definition of
“reserve peace officer” and the statute specifying that only the police chief and municipality
have authority over reserve peace officers. The trial court refused these instructions. The
Court holds that Appellant suffered no harm by the trial court’s refusal to include his

9

TCOLE representative, Derry Minor, testified that in March 2015, shortly after Appellant
resigned, “There was [sic] some digital files that [the Department] were keeping when Chief
Chambers was there that was [sic] on an external hard drive, and it was gone, and they did not know
where it went.” 11 R.R. 212.

App. 47

Chambers dissent - 10
requested jury instructions. The Court reasons that because it finds that the firearmsproficiency documents were governmental records as a matter of law, the instructions would
have had no effect on the jury’s determination that the firearms-proficiency records were
governmental records. The Court also reasons that Appellant’s argument that TCOLE had
no purpose for the false information goes solely to the statutory defense and not to the
element of “governmental record.”
As discussed above, it is improper for this Court to find that the firearms-proficiency
records were governmental records as a matter of law. The jury must decide this issue.
Thus, the jury charge must provide the jury with the information it needs to reach that
decision. Vasquez v. State, 389 S.W.3d 361, 366 (Tex. Crim. App. 2012) (“The purpose of
the trial judge’s jury charge is to instruct the jurors on all of the law that is applicable to the
case.”).
At trial, the State focused almost exclusively on the “governmental record” definition
in Section 37.01(2)(B), emphasizing that TCOLE “required” the documents. The jury was
ultimately charged with both definitions under Section 37.01(2)(A) and (2)(B), but given the
State’s emphasis on the documents being “required,” including in the State’s closing
argument, it is reasonable to assume that the jury relied on that definition. I believe that it
is clear on appeal that these firearms-proficiency records were not “required” and without
question do not meet the definition of “governmental record” under 37.01(2)(B). It appears
that the jury did not understand that the firearms-proficiency records did not meet the

App. 48

Chambers dissent - 11
37.01(2)(B) definition. This lack of understanding would have come from the fact that the
jury was not provided with the statutory provisions requested by Appellant that would have
clarified this matter.
Even if the jury had relied on the definition of “governmental record” under
37.01(2)(A), the jury had to find that the government received or kept the records “for
information.” As discussed above, “for information” requires that there be a usefulness or
purpose for the record. Had the jury been given the requested instructions, the jury would
have known that: (1) a reserve officer does not need to be a licenced police officer and is not
an employed police officer subject to TCOLE authority; and (2) only a police chief and the
municipality have any authority over a reserve officer. As argued by the Appellant in both
the trial court and on appeal, this goes directly to the issue of whether TCOLE had a
usefulness or purpose for the reserve officers’ firearms-proficiency records. The issues
involved are based upon obscure and nuanced statutory interplay. To understand the
relationship and authority structure, a jury needs the relevant statutory provisions. Without
these instructions, a jury would not fully understand the difference between a “peace officer”
and a “reserve officer” and would not understand that TCOLE has no authority over reserve
officers. These issues are important factors for the jury to understand and weigh in
determining whether TCOLE received or kept the records “for information.” Even the
TCOLE representative who testified did not understand the statutory limitations on TCOLE’s
authority. How is a jury supposed to understand the law applicable in this case without the

App. 49

Chambers dissent - 12
statutory wording?

Because the requested instructions were essential to the jury’s

understanding of the applicable law and go to an element of the offense, Appellant was
harmed by the exclusion of the requested instructions. If acquittal were not already mandated
by the insufficient evidence, I would remand this case for a new trial.
Conclusion
Chambers’s actions in this case certainly indicate laziness, taking shortcuts, and
deceit. But to be convicted of tampering with a governmental record under Section
37.10(a)(1), Chambers had to “knowingly make[] a false entry in, or false alteration of, a
governmental record.” Two statutory definitions of “governmental record” were provided
to the jury: (1) “anything belonging to, received by, or kept by government for information,
including a court record,” and (2) “anything required by law to be kept by others for
information of government.” Id. § 37.01(2)(A), (B). The records at issue were firearmsproficiency records of “reserve peace officers” who by statute are under the sole supervisory
authority of the chief of police. TCOLE has no authority to train, supervise or regulate these
reserve officers. Thus, TCOLE could neither “require[]” these records under 37.01(2)(B),
nor would it keep such documents “for information” under 37.01(2)(A). Thus, I would find
the evidence in this case legally insufficient to prove that the documents are “governmental
record[s]” and reverse the court of appeals and render an acquittal for Appellant.

Filed: June 26, 2019
Publish

App. 50

THE THIRTEENTH COURT OF APPEALS
13-16-00079-CR
John Chambers
v.
The State of Texas
On appeal from the
103rd District Court of Cameron County, Texas
Trial Cause No. 2015-DCR-268-D
JUDGMENT
THE THIRTEENTH COURT OF APPEALS, having considered this cause on
appeal, concludes that the judgment of the trial court should be AFFIRMED. The Court
orders the judgment of the trial court AFFIRMED.
We further order this decision certified below for observance.
May 4, 2017

App. 51

NUMBER 13-16-00079-CR

COURT OF APPEALS
THIRTEENTH DISTRICT OF TEXAS
CORPUS CHRISTI – EDINBURG
JOHN CHAMBERS,

Appellant,
v.

THE STATE OF TEXAS,

Appellee.

On appeal from the 103rd District Court
of Cameron County, Texas.

OPINION
Before Justices Rodriguez, Contreras, and Longoria
Opinion by Justice Contreras
Appellant John Chambers was convicted on fourteen counts of tampering with
governmental records with intent to defraud or harm, each a state jail felony. See TEX.
PENAL CODE ANN. § 37.10(c)(1) (West, Westlaw through 2015 R.S.). He was sentenced
to two years in state jail and a $2,800 fine, with the jail sentence suspended and
community supervision imposed for five years. On appeal, Chambers argues that the

App. 52

evidence was insufficient to support the conviction, that the trial court lacked jurisdiction,
and that the trial court erred in denying a requested jury instruction. We affirm.
I. BACKGROUND
Chambers served as the chief of police for the small community of Indian Lake in
Cameron County.1 He was the sole paid employee of Indian Lake’s police department
for most of the year, though during the winter months the department would sometimes
employ one other full-time officer. The department also included some twenty to thirty
reserve officers appointed by Chambers who were not paid by the department but rather
worked other full-time jobs mostly outside of law enforcement. See TEX. LOC. GOV’T CODE
ANN. § 341.012 (West, Westlaw through 2015 R.S.) (authorizing the establishment of a
police reserve force by the governing body of a municipality).
In January 2015, the Texas Commission on Law Enforcement (TCOLE) conducted
an audit of Indian Lake’s police department.

Derry Minor, a TCOLE field agent,

administered the audit by examining the department’s paperwork regarding, among other
things, criminal background checks, firearms qualifications, and medical and
psychological testing of the officers. Minor reviewed records for fifteen of the reserve
officers and he determined that firearms qualifications records for eight of the reserve
officers were missing. Believing that the department was required by law to keep such
records, Minor notified Chambers of the deficiency via a preliminary audit report dated
January 13, 2015. Chambers signed the report, which stated that he had until January
23, 2015 to correct the deficiency.2
As of the 2010 Census, Indian Lake had a population of 640. U.S. CENSUS BUREAU,
https://factfinder.census.gov/faces/nav/jsf/pages/community_facts.xhtml (last visited May 1, 2017).
1

The report stated: “lf an agency fails to correct the deficiencies by the compliance date, TCOLE
may take disciplinary action on the license of the chief administrator and/or assess an administrative penalty
2

2
App. 53

According to trial testimony, Chambers then instructed Alfredo Avalos, the only
other full-time officer with the department at the time, to fill out firearms qualifications
forms for fourteen different Indian Lake reserve police officers. The forms indicated that
each reserve officer had passed a “firearms qualification practical pistol course” on
September 20, 2014 using a. 40-caliber Smith & Wesson pistol with a serial number
registered as belonging to Chambers.3 Each of the fourteen named reserve officers
testified at trial that they did not, in fact, pass a firearms course on September 20, 2014
using a .40-caliber Smith & Wesson pistol.
Chambers was charged by indictment with fourteen counts of knowingly making
false entries in governmental records with the intent to defraud or harm the State of Texas.
See TEX. PENAL CODE ANN. § 37.10(c)(1). The jury, having been instructed on the law of
parties, see id. § 7.02 (West, Westlaw through 2015 R.S.), found Chambers guilty on all
fourteen counts. This appeal followed.
II. DISCUSSION
A.

Governmental Record
By his first issue, Chambers argues that the evidence was insufficient to support

the jury’s verdicts because the falsified documents in this case were not “governmental
records.” See id. § 37.10(a)(1).
In reviewing sufficiency of the evidence, we consider the evidence in the light most
favorable to the verdict to determine whether any rational trier of fact could have found

under Texas Occupations Code 1701.507 of up to one thousand dollars ($1000) per day, per violation.”
Avalos contacted a TCOLE investigator prior to filling out the forms. The investigator directed
Avalos to follow Chambers’ instructions and, according to Avalos, the investigator told him that he would
be “given immunity” for doing so.
3

3
App. 54

the essential elements of the crime beyond a reasonable doubt. Hacker v. State, 389
S.W.3d 860, 865 (Tex. Crim. App. 2013); see Brooks v. State, 323 S.W.3d 893, 895 (Tex.
Crim. App. 2010) (plurality op.) (citing Jackson v. Virginia, 443 U.S. 307, 319 (1979)). A
sufficiency review sometimes “involves simply construing the reach of the applicable
penal provision in order to decide whether the evidence, even when viewed in the light
most favorable to conviction, actually establishes a violation of the law.” DeLay v. State,
443 S.W.3d 909, 912 (Tex. Crim. App. 2014). “If the evidence establishes precisely what
the State has alleged, but the acts that the State has alleged do not constitute a criminal
offense under the totality of the circumstances, then that evidence, as a matter of law,
cannot support a conviction.” Id. (citing Williams v. State, 235 S.W.3d 742, 750 (Tex.
Crim. App. 2007)).
We measure sufficiency by the elements of the offense as defined by a
hypothetically correct jury charge. Malik v. State, 953 S.W.2d 234, 240 (Tex. Crim. App.
1997). Such a charge would instruct the jury in this case that Chambers is guilty of
tampering with governmental records as alleged in the indictment if, as a principal or as
a party, he “knowingly ma[de] a false entry in . . . a governmental record.” TEX. PENAL
CODE ANN. § 37.10(a)(1); see id. § 7.02. In accordance with the definition provided in the
penal code, the jury was instructed that “governmental record” means “anything belonging
to, received by, or kept by government for information” or “anything required by law to be
kept by others for information of government.” See id. § 37.01(2)(A), (B) (West, Westlaw
through 2015 R.S.).
Chambers contends specifically that the firearms qualifications forms at issue here
are not “governmental records” because they are not legally required to be kept. He notes

4
App. 55

that, according to regulations promulgated by TCOLE, a police agency is required to keep
firearms qualifications records only for each “peace officer” that it “employs,” and he
argues that this excludes reserve officers. See 37 TEX. ADMIN. CODE § 218.9(a) (West,
Westlaw through 42 Tex. Reg. No. 1288) (“Each agency or entity that employs at least
one peace officer shall: (1) require each peace officer that it employs to successfully
complete the current firearms proficiency requirements at least once each calendar year
for each type of firearm carried . . . [and] (3) keep on file and in a format readily accessible
to the commission a copy of all records of this proficiency.”); see also TEX. OCC. CODE
ANN. § 1701.001(3), (4), (6) (West, Westlaw through 2015 R.S.) (defining “officer” as “a
peace officer or reserve law enforcement officer” and defining the two types of officers
differently). Chambers further argues that, under the Texas Local Government Code, the
appointment and qualifications of reserve municipal police officers are not governed by
TCOLE but instead are under the sole purview of the municipality’s police chief. See TEX.
LOC. GOV’T CODE ANN. § 341.012(g) (stating that a reserve municipal police officer who is
not a “peace officer” as defined in code of criminal procedure article 2.12 may carry a
weapon “only when authorized to do so by the chief of police and only when discharging
official duties as a peace officer”); see also TEX. CODE CRIM. PROC. ANN. art. 2.12(3)
(West, Westlaw through 2015 R.S.) (defining “peace officer” in part as “those reserve
municipal police officers who hold a permanent peace officer license issued under
Chapter 1701, Occupations Code”).
We need not determine whether the documents at issue here were in fact required
to be kept by law because that is not an essential element of the offense. As noted, a
“governmental record” may be “anything belonging to, received by, or kept by government

5
App. 56

for information.” TEX. PENAL CODE ANN. § 37.01(2)(A). “Government” includes the police
department of Indian Lake. See id. § 1.07(24) (West, Westlaw through 2015 R.S.)
(“‘Government’ means: (A) the state; (B) a county, municipality, or political subdivision of
the state; or (C) any branch or agency of the state, a county, municipality, or political
subdivision.”). Accordingly, the State did not need to prove that the firearms qualifications
records were “required by law to be kept”; instead, it needed only to prove that the records
“belong[ed] to, [were] received by, or [were] kept” by the police department of Indian Lake
“for information.” See id. § 37.01(2)(A). It is undisputed that Chambers directed the
creation of the records in his capacity as chief of police of Indian Lake.

Although

Chambers argues that the records were not legally required to be kept, he does not
dispute that the records, in fact, “belong[ed] to” and were “kept by” the department “for
information.” Therefore, the records are “governmental records.” See id.; see also
Magee v. State, No. 01-02-00578-CR, 2003 WL 22862644, at *2 (Tex. App.—Houston
[1st Dist.] Dec. 4, 2003, no pet.) (mem. op., not designated for publication) (rejecting
appellant’s argument that police offense report was not a “governmental record” because
“the State did not prove it was required by law to be kept”).
Chambers cites three cases where courts have found that a record was not a
“governmental record” in the context of a tampering case under penal code section
37.10(a)(1), but we find that those cases are distinguishable. In Pokladnik v. State, the
appellant, a private citizen, made false entries in affidavits based on a form promulgated
by the State Department of Highways and Public Transportation (SDHPT). 876 S.W.2d
525, 527 (Tex. App.—Dallas 1994, no pet.). The Dallas Court of Appeals held that the
affidavits were not “governmental records” because they were never submitted to any

6
App. 57

governmental entity, including SDHPT.

Id. at 527 (rejecting the argument that the

affidavits “belonged” to SDHPT because the form upon which they were based was
prescribed by statute). In Constructors Unlimited, Inc. v. State, the First District Court of
Appeals held that “Contractor’s Estimate” forms were not “governmental records”
because they did not belong to the government, had not been received by the
government, and were not kept by the government for information at the time they were
executed. 717 S.W.2d 169, 172 (Tex. App.—Houston [1st Dist.] 1986, pet. ref’d). The
Beaumont Court of Appeals reached a similar conclusion in Siegel v. State, No. 09-1300536-CR, 2015 WL 3897860, at *3 (Tex. App.—Beaumont June 24, 2015, pet. ref’d)
(mem. op., not designated for publication) (finding, where appellant made a false entry
regarding her length of residency in an application for a ballot place, that the application
was not a governmental record at the time it was made). Here, the records at issue were
governmental records at the time they were made because the police department of
Indian Lake is part of the government for purposes of the statute, and Chambers directed
the falsification of the records in his capacity as police chief. See TEX. PENAL CODE ANN.
§ 1.07(24)(C).
Chambers contends that this broad interpretation of the definition of “governmental
record” would lead to an absurd result because “[i]t would include virtually any piece of
paper with information kept at a police department.” See Ex parte Perry, 483 S.W.3d
884, 902 (Tex. Crim. App. 2016) (“In construing a statute, we give effect to the plain
meaning of its language unless the language is ambiguous or the plain meaning leads to
absurd results that the legislature could not have possibly intended.”). We do not find this
result to be absurd or contrary to legislative intent. The Legislature could have added a

7
App. 58

requirement to the definition of “governmental record” in penal code section 37.01(2)(A)—
similar to the one actually contained in section 37.01(2)(B)—that the record at issue be
required to be kept by law. See TEX. PENAL CODE ANN. § 37.01(2)(A), (B). It is also
noteworthy that section 37.10 provides for a defense to tampering with governmental
record in cases where “the false entry or false information could have no effect on the
government’s purpose for requiring the governmental record.” Id. § 37.10(f). Though this
provision appears to presume that the government has some “purpose for requiring” the
record that was falsified, there is no language anywhere in the statute explicitly stating
that a record must be “required” by a government entity in order for the record to qualify
as a “governmental record.” In any event, the defense set forth in section 37.10(f) serves
as a safety valve that would generally prevent conviction in cases where the record at
issue, though “kept” by a government entity “for information,” is insignificant or otherwise
unrelated to the entity’s governmental function.4 The existence of the section 37.10(f)
defense therefore undercuts Chambers’ argument that a broad interpretation of
“governmental records” would lead to an absurd result.
For the reasons set forth above, we conclude that the firearms qualifications
records at issue in this case were “governmental records” for purposes of the tampering
statute. Chambers’ first issue is overruled.
B.

Jury Charge Error
By his second issue, Chambers contends that the trial court erred in denying his

request for a jury charge instruction regarding the “distinction between an employee and

4 The jury charge contained an instruction as to the section 37.10(f) defense. Chambers does not
argue on appeal that the evidence was insufficient to support the jury’s implicit rejection of that defense.

8
App. 59

a volunteer reservist” under section 341.012 of the local government code. He argues
that this statute “establishes that the qualifications for reserve officers are set by the
municipality and the chief, not TCOLE,” and that “no rational trier of fact could have found
[him] guilty beyond a reasonable doubt had they been instructed” on this statute.
The trial court is required to give the jury a written charge “distinctly setting forth
the law applicable to the case; not expressing any opinion as to the weight of the
evidence, not summing up the testimony, discussing the facts or using any argument in
his charge calculated to arouse the sympathy or excite the passions of the jury.” TEX.
CODE CRIM. PROC. ANN. art. 36.14 (West, Westlaw through 2015 R.S.). An accused
generally has the right to an instruction on any defensive issue raised by the evidence,
whether that evidence is weak or strong, unimpeached or contradicted, and regardless of
what the trial court may or may not think about the credibility of the evidence. Sanchez
v. State, 400 S.W.3d 595, 598 (Tex. Crim. App. 2013) (noting that “[t]his rule is designed
to ensure that the jury, not the judge, decides the credibility of the evidence”). But if the
defensive theory is not explicitly listed in the penal code and merely negates an element
of the State’s case, rather than independently justifying or excusing the conduct, the trial
judge should not instruct the jury on it. Walters v. State, 247 S.W.3d 204, 209 (Tex. Crim.
App. 2007); see Alonzo v. State, 353 S.W.3d 778, 784 (Tex. Crim. App. 2011); see also
Giesberg v. State, 984 S.W.2d 245, 246 (Tex. Crim. App. 1998) (noting that the defendant
does not have the burden to prove “[a] defensive issue which goes no further than to
merely negate an element of the offense,” such as alibi, and concluding that a special
instruction on alibi would constitute an unwarranted comment on the weight of the
evidence).

9
App. 60

Section 341.012 of the local government code provides, in its entirety, as follows:
(a)

The governing body of a municipality may provide for the
establishment of a police reserve force.

(b)

The governing body shall establish qualifications and standards of
training for members of the reserve force.

(c)

The governing body may limit the size of the reserve force.

(d)

The chief of police shall appoint the members of the reserve force.
Members serve at the chief’s discretion.

(e)

The chief of police may call the reserve force into service at any time
the chief considers it necessary to have additional officers to
preserve the peace and enforce the law.

(f)

A member of a reserve force who is not a peace officer as described
by Article 2.12, Code of Criminal Procedure, may act as a peace
officer only during the actual discharge of official duties.

(g)

An appointment to the reserve force must be approved by the
governing body before the person appointed may carry a weapon or
otherwise act as a peace officer. On approval of the appointment of
a member who is not a peace officer as described by Article 2.12,
Code of Criminal Procedure, the person appointed may carry a
weapon only when authorized to do so by the chief of police and only
when discharging official duties as a peace officer.

TEX. LOC. GOV’T CODE ANN. § 341.012. Chambers notes that the State had the burden to
prove that the records at issue were “governmental records,” and he argues that “[t]he
jury was unable to rationally decide this question because it was denied an instruction on
the law applicable to whether this firearms qualification data was required by law to be
kept.”
The trial court did not err in declining to instruct the jury on this statute. The State
had the burden to establish all elements of the offense, including that the falsified
documents at issue fell within the penal code’s broad definition of “governmental records.”
See TEX. PENAL CODE ANN. §§ 37.01(2), 37.10(a)(1). Chambers was not entitled to a jury

10
App. 61

charge instruction on local government code section 341.012 because, to the extent he
asserted a defensive theory relating to that statute, it consisted only of negating this
element of the State’s case. See Walters, 247 S.W.3d at 209. Moreover, we have already
concluded that the State met its burden to establish this element, notwithstanding section
341.012. Chambers’ second issue is overruled.
C.

Intent to Harm or Defraud
Tampering with governmental records is a state-jail felony if “the actor’s intent is

to defraud or harm another.” TEX. PENAL CODE ANN. § 37.10(c)(1). Here, the indictment
alleged that Chambers acted with the intent to defraud or harm the State. Chambers
argues by two issues that “to defraud or harm the State” means “to deprive the State of a
pecuniary or property interest.” He contends by his third issue that there was insufficient
evidence to support a finding that he intended to deprive the State of a pecuniary or
property interest, and he contends by his fourth issue that the district court lacked
jurisdiction because no such interest was alleged in the indictment. See TEX. CODE CRIM.
PROC. ANN. art. 4.05 (West, Westlaw through 2015 R.S.) (setting forth criminal jurisdiction
of district courts).
The jury charge in this case, consistent with the penal code, defined “harm” as
“anything reasonably regarded as loss, disadvantage, or injury, including harm to another
person in whose welfare the person affected is interested.” See TEX. PENAL CODE ANN.
§ 1.07(25). “Defraud” is not defined in the penal code.5 An undefined statutory term is
“to be understood as ordinary usage allows, and jurors may thus freely read statutory
language to have any meaning which is acceptable in common parlance.” Clinton v.

5

The jury was instructed that “defraud” “should be given the plain meaning it bears in ordinary use.”

11
App. 62

State, 354 S.W.3d 795, 800 (Tex. Crim. App. 2011) (citing Vernon v. State, 841 S.W.2d
407, 409 (Tex. Crim. App. 1992)).
Chambers argues that the word “defraud” “inherently refers to wrongful acts bent
upon the immoral or unlawful acquisition of property.” See MERRIAM-W EBSTER’S ONLINE
DICTIONARY, at http://www.merriam-webster.com/dictionary/defraud (last visited May 1,
2017) (defining “defraud” as “to deprive of something by deception or fraud”); see also
McNally v. United States, 483 U.S. 350, 351 (1987) (“The words ‘to defraud’ commonly
refer to wronging one in his property rights by dishonest methods . . . .”). He contends
that the State’s interest in the firearms qualifications records at issue “is neither
proprietary nor pecuniary, and the State cannot be defrauded solely of its regulatory
power.” See Cleveland v. United States, 531 U.S. 12, 20 (2000) (holding that, for
purposes of the federal mail fraud statute, a state or municipal license “is not ‘property’ in
the government regulator’s hands” and therefore the government does not “part[] with
‘property’” when it issues a license).
But in the context of the tampering with governmental records statute, courts have
construed “intent to defraud” as the intent “to cause another to rely upon the falsity of a
representation, such that the other person is induced to act or is induced to refrain from
acting.” See Wingo v. State, 143 S.W.3d 178, 187 (Tex. App.—San Antonio 2004), aff’d,
189 S.W.3d 270 (Tex. Crim. App. 2006) (citing 41 TEX. JUR. 3d Fraud and Deceit § 9
(1998)); Martinez v. State, 6 S.W.3d 674, 678 (Tex. App.—Corpus Christi 1999, no pet.)
(finding sufficient evidence to support conviction for tampering with governmental
records); see also State v. Gollihar, No. 04-07-00623-CR, 2008 WL 2602095, at *2 (Tex.
App.—San Antonio July 2, 2008) (mem. op., not designated for publication), aff’d on other

12
App. 63

grounds, No. PD-1086-08, 2010 WL 3700790 (Tex. Crim. App. Sept. 22, 2010);
Christmann v. State, No. 08-04-00103-CR, 2005 WL 3214832, at *5 (Tex. App.—El Paso
2005, no pet.) (not designated for publication).6 Under this definition, which is “acceptable
in common parlance,” see Clinton, 354 S.W.3d at 800, the State does not need to allege
or prove that Chambers deprived the State of a proprietary or pecuniary interest in order
to sustain a felony tampering charge.

And the evidence supported a finding that

Chambers directed the falsification of the records in order to cause TCOLE to refrain from
taking action against him and his department. See Wingo, 143 S.W.3d at 187; Martinez,
6 S.W.3d at 678.
Chambers notes that “[t]he act of intentionally making a false entry in a
governmental record is inherently deceptive” and he argues that, under this interpretation
of “intent to defraud,” “it is difficult to conceive of any prosecution” under the tampering
statute that would not rise to the level of a state jail felony. He contends that construing
“intent to defraud” in this fashion, though consistent with the statute’s plain language,
would lead to an absurd result that the Legislature “could not possibly have intended when
it created a base level offense and a separate enhancement for fraud or harm.” See Ex
parte Perry, 483 S.W.3d at 902; Whitelaw v. State, 29 S.W.3d 129, 131 (Tex. Crim. App.
2000) (noting that, in conducting an inquiry into a statute’s plain meaning, “we generally
presume that every word in a statute has been used for a purpose” and “each word,
6 As the State notes, conspiracy to defraud has also been interpreted under federal law to include
deception unrelated to pecuniary or property loss. See Hammerschmidt v. United States, 265 U.S. 182,
188 (1924) (“To conspire to defraud the United States means primarily to cheat the government out of
property or money, but it also means to interfere with or obstruct one of its lawful governmental functions
by deceit, craft or trickery, or at least by means that are dishonest. It is not necessary that the government
shall be subjected to property or pecuniary loss by the fraud, but only that its legitimate official action and
purpose shall be defeated . . . .”); United States v. Goldberg, 105 F.3d 770, 773 (1st Cir. 1997)
(“[C]onspiracies to defraud are not limited to those aiming to deprive the government of money or property,
but include conspiracy to interfere with government functions.”).

13
App. 64

phrase, clause, and sentence should be given effect if reasonably possible”)

We

acknowledge that the interpretation of “intent to defraud” to include deception unrelated
to pecuniary or property loss is broad; however, we do not agree that the Legislature
could not have intended this result. It is possible for a person to commit tampering with
governmental records without triggering the “intent to harm or defraud” enhancement; for
example, as Chambers concedes, the offense would be a misdemeanor if the
governmental record at issue “is never intended to be seen by another person.” In any
event, Chambers has not provided us with a reason to deviate from the established
precedent, in the tampering with governmental records context, construing intent to
defraud as intent “to cause another to rely upon the falsity of a representation, such that
the other person is induced to act or is induced to refrain from acting.” See Wingo, 143
S.W.3d at 187; Martinez, 6 S.W.3d at 678.
For the foregoing reasons, we conclude that a felony tampering charge does not
require pleading or proof of a pecuniary or property loss by the government. Accordingly,
the evidence was sufficient to support the intent finding and the district court properly
exercised jurisdiction.7 We overrule Chambers’ third and fourth issues.8

We note that, even if the indictment alleged facts only amounting to a misdemeanor, the district
court would still have jurisdiction because the alleged offense involved official misconduct. See TEX. CODE
CRIM. PROC. ANN. art. 4.05 (West, Westlaw through 2015 R.S.) (providing that district courts “shall have
original jurisdiction in criminal cases of the grade of felony” and “of all misdemeanors involving official
misconduct”); see also id. art. 3.04(1) (West, Westlaw through 2015 R.S.) (defining “official misconduct” as
“an offense that is an intentional or knowing violation of a law committed by a public servant while acting in
an official capacity as a public servant”); TEX. PENAL CODE ANN. § 1.07(41)(A) (West, Westlaw through 2015
R.S.) (defining “public servant” as, among other things, “an officer, employee, or agent of government”).
7

In his brief, Chambers lists a fifth appellate issue challenging the exclusion of certain evidence at
trial. However, the issue is not supported by any argument. Accordingly, it is waived. See TEX. R. APP. P.
38.1(i).
8

14
App. 65

III. CONCLUSION
The trial court’s judgment is affirmed.
DORI CONTRERAS
Justice
Publish.
TEX. R. APP. P. 47.2(b).
Delivered and filed the
4th day of May, 2017.

15
App. 66

